Audit of Supplemental Funding for Certain
          CISE Research Awards



        National Science Foundation
        Office of Inspector General
             December 1, 2008
              OIG 09-2-004
Introduction                  In 2007, the National Science Foundation (NSF) Office of Inspector
                              General (OIG) received anonymous information expressing concerns
                              that NSF’s Computer and Information Science and Engineering
                              (CISE) Directorate improperly made supplemental funding awards.
                              Specifically, the information alleged that CISE had provided
                              supplemental funding awards for the Measurement and Signatures
                              Intelligence Program (MASINT) without following NSF’s required
                              external merit review process.

Background                    In fiscal year 2004, at the direction of the Congress, the Defense
                              Intelligence Agency (DIA) established the MASINT program “to
                              discover, develop and implement advanced science-based
                              technologies and techniques that will enhance our ability to acquire
                              actionable, unambiguous intelligence despite an adversary’s attempts
                              to conceal or deceive.”1 NSF administers the unclassified, university,
                              basic-research element of the program by facilitating the awarding of
                              funds to DIA-approved university research institutions, and by
                              providing focus and insight for ongoing and potential basic research
                              investments. DIA transfers funds to NSF for these awards through
                              interagency agreements.2

Objective, Scope              In response to the anonymous concerns expressed to the OIG, the
                              objective of our audit was to determine whether NSF staff followed
and Methodology               NSF’s merit review policies and procedures for awarding
                              supplemental funds under the MASINT program. To make this
                              determination, we reviewed documentation for 19 MASINT awards3
                              and interviewed NSF and DIA staff involved with the MASINT
                              program and with administering the program’s awards.

                              We conducted this performance audit from February 2008 to August
                              2008 in accordance with generally accepted government auditing
                              standards. Those standards require that we plan and perform the audit
                              to obtain sufficient, appropriate evidence to provide a reasonable
                              basis for our findings and conclusions based on our audit objectives.
                              We believe that the evidence obtained provides a reasonable basis for
                              our findings and conclusions based on our audit objectives.


Results of Audit              Our audit found that while CISE appears to have had a proper basis to
                              request a deviation from NSF’s standard merit review process to
                              make supplemental awards for the MASINT program, it did not

1
  Charter for the National Consortium for Measurement and Signatures Intelligence Research, at 3.
2
  Id. at 11.
3
  The anonymous information we received contained a list of 21 MASINT awards, of which 19 had supplements.
We requested a full listing of MASINT awards from CISE, but did not receive it. However, based on interviews
with CISE staff, we believe these 19 to be representative of the program.


                                                       1
                    obtain the required Director’s approval for the deviation. CISE also
                    did not adequately document, and thus communicate to the staff
                    responsible for making the awards, the reasons for the deviation from
                    these standard policies and procedures. Consequently, concerns on
                    the part of grants officials about the lack of merit review led to
                    funding delays and additional investigations and reviews. Further, the
                    lack of approval and documentation gave the appearance to Division
                    of Grants and Agreements (DGA) staff of circumventing and
                    undermining the propriety of one of NSF’s most important and
                    fundamental quality control processes.

NSF Requires        According to NSF’s Proposal and Award Manual (PAM), in unusual
                    circumstances, awardees may request small amounts of supplemental
Merit Review or     funding and up to six months of additional financial support to assure
Waiver for          adequate completion of the original scope of work. If the total
Supplements         supplemental funding request, including all actual and anticipated
                    increments, exceeds 20 percent of the original award total or if the
                    proposal request is beyond the scope of original work, the PAM
                    requires external merit review of the proposal for the supplemental
                    funds, regardless of whether that funding is from NSF or another
                    Federal agency. However, in another section related to merit review
                    in general, the PAM does allow NSF’s Director or his designee to
                    waive external merit review requirements. The PAM also
                    recommends that information relating to a special exemption from
                    merit review be documented in NSF’s Electronic Jacket System
                    (eJacket).

MASINT              CISE awarded supplemental funds to MASINT awardees that
                    exceeded the 20-percent threshold without first obtaining the required
Program Did Not     merit review. In many cases, these supplements were significantly
Follow NSF          greater than the original award. For example, in one instance, the
Policies to Waive   original award was for $199,911. The supplements increased the total
                    amount of funding to over $1,000,000. Similarly, in another instance,
Merit Review        the original award was for $147,503, but supplements increased the
                    total amount of funding to $973,503.

                    CISE staff appeared to have a sound basis for making these follow-on
                    awards without obtaining a merit review, but did not seek the required
                    NSF Director’s approval for the waiver. Additionally, CISE staff did
                    not adequately document in the eJacket award files the reason for not
                    conducting merit review that would have provided explanations for
                    the deviation to the responsible grants office staff.

                    As part of making the original MASINT awards, DIA invited pre-
                    screened, potential awardees to submit proposals to NSF for funding.
                    As stated in the MASINT program Charter, “university efforts


                                         2
                                deemed successful will continue for a full three-year period.”
                                Consequently, most, but not all, of the initial proposals contemplated
                                future years funding and included information on research activities
                                for subsequent years in those proposals.4 NSF conducted merit
                                reviews of these original proposals using DIA-approved panel
                                reviewers, and, according to one NSF employee, panelists were made
                                aware of the potential for a full three years of funding. In addition,
                                DIA conducted semi-annual reviews to ensure the progress was
                                adequate and warranted the subsequent year’s funding. However,
                                because DIA’s appropriation only allowed for funding these awards
                                in one-year increments, NSF opted not to take the risk that DIA’s
                                funding priorities might change leaving NSF potentially responsible
                                for funding the second and/or third year of the awards from its own
                                appropriations. As such, NSF chose not to award three-year
                                continuing grants, but instead made one-year awards to the successful
                                proposers and provided supplemental awards for the second and third
                                years.

                                Therefore, it seems that CISE may have had a reasonable basis for
                                using supplemental awards as the vehicle to fund the second and third
                                years without conducting further merit review, and that basis could
                                have justified the Director’s approval of a waiver for the deviation.
                                However, CISE did not seek or obtain the required waiver from the
                                NSF Director. Additionally, the proposers were not required to
                                provide nor did the panelists review financial budgets for the full
                                three years. Consequently, reviewers did not have sufficient
                                information to ensure that the scope of the research could be
                                appropriately and sufficiently funded or that projects would not be
                                over funded during the full life of the award.

                                In addition, CISE did not adequately document its decision-making
                                process or the verbal guidance it received when making the
                                supplemental MASINT awards without additional merit review.
                                During the course of our audit, CISE stated it consulted with the NSF
                                Policy Office and the Office of General Counsel (OGC) when making
                                the decision to use supplemental awards to fund the out years of the
                                MASINT program awards. We have confirmed that NSF’s Policy
                                Office was indeed involved in and agreed to this decision. However,
                                the representative from OGC has no knowledge or recollection of
                                these events. Further, we were informed by OGC that they believed
                                any conversations they may have had with NSF staff regarding the
                                MASINT awards could potentially be covered by an attorney-client
                                privilege, thus prohibiting any discussion with our office.


4
 DIA instructs awardees that while they may provide details of several years in their proposals they should be clear
on what will be accomplished within the first year and what funding is needed for the first year.


                                                         3
                               Clear documentation in unique award circumstances is not only
                               recommended by NSF’s policies, but also is vital for effective
                               communication between NSF’s Division of Grants and Agreements
                               (DGA) and its science directorates. From July 2004 to September
                               2007, at least 12 different grants and agreements officers processed
                               awards and amendments for the MASINT program. With so many
                               grants officers working on this program, documentation of the basis
                               to deviate from merit review requirements is critical to preserving the
                               integrity of this well-regarded process of grantee selection. “The
                               merit review process is at the very heart of NSF’s selection of the
                               projects through which its mission is achieved.”5 When such
                               documentation and communications to the responsible grants officers
                               is not provided, misunderstandings and second-guessing occur and
                               create the appearance of undermining important agency core values.

Consequences of                Because CISE did not obtain an approved waiver or adequately
                               document in eJacket the process and rationale for making these
Missing Waiver                 supplemental awards, DGA staff questioned why CISE was not
and Inadequate                 conducting the otherwise required merit reviews of the MASINT
Documentation                  follow-on awards, some of which amounted to as much as $700,000
                               per supplement. DGA staff began canceling MASINT supplements
                               and an investigation of the matter was called for. In turn, funding to
                               MASINT awardees was significantly delayed until at least some of
                               the DGA staff concerns were addressed.

NSF Is Taking                  DGA and CISE are currently working on creating language to place
                               in all MASINT award jackets explaining the process NSF uses to
Partial Corrective             provide funding to MASINT awardees. Once developed, this
Action                         language should then be available through eJacket to all DGA grants
                               officers processing these awards. However, at the time of our audit,
                               NSF did not have any plans to address the NSF requirement to obtain
                               a formal waiver from the Director.

Conclusion and                 It appears that CISE had a justifiable basis to obtain the Director’s
                               formal approval to deviate from NSF's standard merit review policies
Recommendations                when using supplemental funds to provide subsequent years' funding
                               to MASINT awardees. As such, NSF had documented policies and
                               procedures that provide CISE with the flexibility it needed to make
                               the supplemental awards for this program without merit review.
                               However, by not following those procedures, CISE did not seem to
                               have the proper authority to provide the supplemental funding without
                               merit reviews and gave the appearance to DGA staff of undermining
                               the integrity of one of NSF’s most important and fundamental quality
                               control processes.
5
 Report to the National Science Board on the National Science Foundation’s Merit Review Process Fiscal Year
2006, March 2007.


                                                       4
                  Consequently, we recommend that the NSF Deputy Director direct
                  the Assistant Director for CISE to:

                     1)      Request, on a program-wide basis, the required
                             authorization from the NSF Director to waive the merit
                             review of all MASINT proposals for supplemental awards
                             for out-year funding and document the waiver in eJacket,
                             in accordance with NSF’s policy; and

                     2)      Ensure each existing affected MASINT eJacket contains
                             the “[p]rogram memoranda, diary notes, correspondence to
                             and from the proposer, or other data/information/
                             correspondence relating to the recommendation or special
                             exemption from external merit review” as required by the
                             Proposal and Award Manual, including documentation
                             of the decision-making process and rationale CISE staff
                             used to justify funding supplemental awards without merit
                             review.

                  Additionally, because unique situations such as these may arise in the
                  future, we also recommend that the NSF Deputy Director direct the
                  NSF Chief Financial Officer, Director Office of Budget, Finance and
                  Award Management to:

                     3)      Issue a memorandum to all NSF staff reminding them of
                             the current NSF policy for making supplemental awards,
                             including the requirement for merit review of
                             supplemental award proposals except in unusual
                             circumstances, in which case a written waiver must be
                             obtained from the NSF Director or his designee; and

                     4)      Provide cross-references in the PAM that link the
                             requirements surrounding merit review of supplemental
                             awards with those related to merit review in general,
                             including the possibility for a waiver from the Director in
                             unusual circumstances.

Agency Response   NSF concurred with the findings and stated it will implement the
                  report’s recommendations. The Appendix contains the agency’s
                  response to the report in its entirety.




                                       5
Appendix: Agency Response




                            6
